OFFICE OF INSPECTOR GENERAL


PHOENIX POST
IMPLEMENTATION AUDIT OF
USAID MISSION USERS'
NEEDS
AUDIT REPORT NO. A-000-08-002-P
January 11, 2008




WASHINGTON, DC
Office of Inspector General


January 11, 2008

MEMORANDUM

TO:                  Chief Financial Officer, David D. Ostermeyer
                     Chief Information Officer, David C. Anewalt

FROM:                Director IG/A/ITSA, Melinda G. Dempsey /s/ [Lisa M. W. Banks for]

SUBJECT:             Report on Phoenix Post Implementation Audit of USAID Mission Users' Needs
                     (Audit Report No. A-000-08-002-P)

This memorandum transmits the Office of Inspector General’s final report on the subject audit.
In finalizing this report, we considered your comments on the draft report. Your comments are
presented in their entirety in Appendix II.

This report contains eight recommendations to help improve the implementation of the Phoenix
financial system overseas and future information technology investment projects. Based on the
responses received to our draft report, management decisions have been reached on
Recommendations Nos. 1, 2, 3, 4, 5, 6, 7, and 8. Please notify the Bureau for Management’s
Audit, Performance and Compliance Division when final action is completed.

I appreciate the cooperation and courtesies extended to my staff during the audit.




U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
www.usaid.gov
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 3

Audit Objectives ................................................................................................................ 4

About this Report .............................................................................................................. 4

Audit Findings ................................................................................................................. 5

Did USAID’s implementation of Phoenix at selected missions meet users’ needs with
respect to reporting? ......................................................................................................... 5

     Quality of Information and Ability to Create Reports Needs Improvement.................. 5

Did USAID’s implementation of Phoenix at selected missions meet users’ needs with
respect to system performance?..................................................................................... 11

     System Performance Problems ................................................................................ 11

Did USAID’s implementation of Phoenix at selected missions meet users’ needs with
respect to user support? ................................................................................................. 18

     Training and Education for Users Needed ................................................................ 18

Did USAID’s implementation of Phoenix at selected missions meet users’ needs with
respect to system functionality? ...................................................................................... 22

     Inefficiencies in Processing Some Transaction Types .............................................. 22

Evaluation of Management Comments ....................................................................... 27

Appendix I – Scope and Methodology ........................................................................ 28

Appendix II – Management Comments ....................................................................... 31
SUMMARY OF RESULTS
In an effort to correct a weakness 1 with its accounting system, USAID initiated the Phoenix
Overseas Deployment Project to implement a single, agencywide integrated core financial
system. As such, the Office of Inspector General in Washington, DC, initiated this
Phoenix post-implementation audit to determine whether USAID deployed its core
financial system, Phoenix, to mission field locations in a manner that fulfilled the users’
needs with respect to system functionality, system performance, reporting, and user
support. The results of a post-implementation review should be used to strengthen the
system and the system deployment procedures. (Pages 3-4.)

Overall, this audit concluded the following:

•   USAID’s implementation of Phoenix at selected missions met users’ needs with
    respect to reporting, although the quality of information and the ability to create
    reports needs improvement. These problems occurred because USAID did not
    (1) implement its reporting strategy in an organized manner, (2) adequately manage
    risks related to reporting needs, and (3) actively monitor reports for performance. As
    a result, missions are developing their own reporting tools to address reporting
    needs. (Pages 5–11.)

•   USAID’s implementation of Phoenix at selected missions met users’ needs with
    respect to system performance, although some mission users were unable to work
    efficiently because of unstable system performance. This problem occurred because
    USAID did not (1) implement an effective performance monitoring process,
    (2) develop a completed business continuity plan for Phoenix, and (3) perform
    volume and stress testing. As a result, users resorted to working around the system
    performance limitations. (Pages 11–18.)

•   USAID’s implementation of Phoenix at selected missions met users’ needs with
    respect to user support, except with respect to training and education for mission
    users. This problem is primarily attributed to USAID’s aggressive deployment
    schedule and a reduction in independent, onsite postdeployment support owing to
    budgetary constraints. As a result, USAID risks instituting inefficiencies in the
    missions’ processes to generate reports and process transactions. (Pages 18–22.)

•   USAID’s implementation of Phoenix at selected missions met users’ needs with
    respect to functionality, except for inefficiencies in processing trust funds,
    disbursements, and functionality for invoice tracking, prompt pay processing, and
    Department of Health and Human Services (DHHS) transactions. These problems
    occurred primarily because the system was deployed before it was ready and
    functional requirements documentation was not maintained. As a result, mission
    users were not provided the tools needed to efficiently and effectively complete some
    daily tasks. In addition, mission users maintained cuff records to accommodate the
    gaps in functionality. (Pages 22–26.)

1
 A deficiency that is determined to be of such significance that it should be reported to the next
management level.



                                                                                                1
As such, this audit makes eight recommendations to help USAID address mission users’
concerns with reporting, systems performance, user support, and functionality.
(Pages 10–11, 17–18, 21, and 25.)

In their response to the draft report, USAID management agreed to take corrective
action on all eight recommendations. However, USAID management commented that
many of the recommendations are dependent upon budget resource availability. Based
on USAID’s response to the draft report, management decisions have been reached on
Recommendation Nos. 1, 2, 3, 4, 5, 6, 7, and 8. (Page 27.)




                                                                                  2
BACKGROUND
In an effort to correct a longstanding material weakness 2 with its accounting system,
USAID initiated the Phoenix Overseas Deployment Project to implement a single,
agencywide integrated core financial system. Phoenix is a commercial off-the-shelf core
accounting system configured for USAID. It replaced the accounting module in the New
Management System and the Mission Accounting and Control System used in Washington
and the overseas missions, respectively. USAID implemented Phoenix in
USAID/Washington in December 2000 and completed deployment to 51 controllers’
missions in May 2006 for an estimated cost of $63.6 million. As such, Phoenix is now
considered to be the accounting system of record for USAID.

The purpose of a post-implementation review is to evaluate the effectiveness of the
system deployment after the system has been in production for a period of time
(normally 6 months). The objectives are to:

•       Determine if the system implementation met its intended objectives.

•       Identify ways to improve the final delivery of a product.

•       Collect and use the knowledge learned throughout the project to optimize the
        delivery and output of future projects.

The results of a post-implementation review should be used to strengthen the system as
well as the system deployment procedures. One area that should be addressed in the
post-implementation review report is customer reactions and satisfaction.

In 2005, the IT Governance Institute® (established to advance international standards in
directing and controlling an enterprise’s information technology) issued “Control Objectives
for Information and related Technology” (CoBIT®) 4.0. CoBIT 4.0 provides best practices
and presents activities in a manageable and logical structure. CoBIT’s best practices
represent the consensus of experts and are strongly focused on control and less on
execution. These practices will help optimize information technology (IT) enabled
investments, ensure service delivery, and provide a measure against which to judge
outcomes and results if errors occur.

USAID’s IT Governance implementation is based on CoBIT 4.0 by:

•       Making its suggested processes relevant to federal IT organizations.

•       Focusing on IT governance roles and responsibilities.

•       Promoting the use of artifacts to demonstrate control over processes.



2
 A deficiency that is determined to be of such significance that it should be reported to the next
management level.



                                                                                                     3
AUDIT OBJECTIVES
As part of its fiscal year (FY) 2006 audit plan, the Office of the Inspector General,
Information Technology and Special Audits Division, performed this audit to answer the
following questions:

•      Did USAID’s implementation of Phoenix at selected missions meet users’ needs
       with respect to reporting?

•      Did USAID’s implementation of Phoenix at selected missions meet users’ needs
       with respect to system performance?

•      Did USAID’s implementation of Phoenix at selected missions meet users’ needs
       with respect to user support?

•      Did USAID’s implementation of Phoenix at selected missions meet users’ needs
       with respect to functionality?

Appendix I contains a discussion of the audit’s scope and methodology.


ABOUT THIS REPORT
For each finding in this report, the first major section discusses the problem areas. The
second major section discusses the causes of the problem areas. The third major
section discusses the impact of the problem areas.




                                                                                       4
AUDIT FINDINGS
Did USAID’s implementation of Phoenix at selected missions
meet users’ needs with respect to reporting?
USAID’s implementation of Phoenix at selected missions met users’ needs with respect
to reporting, although the quality of information and the ability to create reports needs
improvement.

Phoenix met users’ reporting needs for some financial management activities.
Specifically, reporting has improved (1) the payments process and (2) monthly and
quarterly mission management reporting requirements.

Nonetheless, the quality of information and ability to create reports needs improvement.
The following section discusses this problem in detail.

Quality of Information and Ability to Create Reports Needs
Improvement
 Summary: USAID did not fully implement its goal to provide access to timely,
 complete, and accurate financial information from Phoenix and its ancillary feeder and
 interface systems as documented in the “Functional Configuration Team: Phoenix
 Overseas Deployment Reporting Strategy.” Specifically, according to mission users,
 the quality of reporting information and the time required to create reports needs
 improvement. These problems occurred because USAID did not (1) implement its
 reporting strategy in an organized manner, (2) adequately manage risks related to
 reporting needs, and (3) actively monitor reports for performance. As a result,
 missions are developing their own reporting tools to address reporting needs.
 Moreover, USAID is at risk of receiving inconsistent information for management
 reporting, congressional inquiries, and Agency data calls.

Reports Need Improvements – According to USAID’s “Functional Configuration Team:
Phoenix Overseas Deployment Reporting Strategy,” dated November 21, 2003, the
long-term goal of ongoing steady-state reporting was to:

       …support all USAID information needs by providing USAID information
       customers with access to timely and accurate financial information from
       Phoenix and its ancillary feeder and interface systems.

However, although USAID has moved into the steady state mode for the Phoenix
Overseas Deployment (POD) Project, the Agency has not fully met its goal to provide its
customers with access to quality information that is timely, accurate, and complete.
Specifically, although 80 percent of users surveyed stated that reports (including
standard, Business Objects Enterprise, and Phoenix Viewer reports) met their needs, 41
of 70 users (approximately 59 percent) indicated that reports need improvement—
predominantly with respect to the quality of the reporting information and performance in
creating reports.



                                                                                       5
Similarly, according to USAID’s “Phoenix Overseas Deployment Project Closeout and
Post-Implementation Review Report,” dated October 6, 2006, 67 percent of the
respondents indicated dissatisfaction with reports.

In addition, 55 percent of the respondents encountered inaccurate data with reports,
while only 15 percent had not encountered inaccurate data. (The remaining 30 percent
indicated that they were sometimes satisfied with reports.) Problems encountered
included the following:

•   The summary totals did not match details.

•   Pipeline data often showed negative balances.

•   End of prior quarter information showed double the obligated amount.

•   Negative open obligations.

The following paragraphs detail the reporting deficiencies identified.

        Quality of Information – With respect to the quality of reporting information, 32
of 70 users surveyed (approximately 45 percent) reported concerns that reports are
either not complete or do not provide useful information. For example:

•   Twenty-one users identified concerns that some reporting information was not useful
    and resulted in users maintaining cuff records related to vendor information, voucher
    tracking, payments by vendor, and accrual reporting information for cognizant
    technical officers.

•   Eight users identified concerns in other areas such as incomplete information
    obtained from the Undisbursed Payment Query, inaccurate accrual information,
    periodic inconsistent results from the R0210 (Transaction Detail Report), and reports
    that excluded historical information not included in the migration.

    Of the eight users, seven identified problems with the pipeline 3 reports that USAID
    had planned to certify as accurate. (USAID did not confirm whether the certification
    was complete.) According to those users, the report was missing the subactivity code
    description—a key element needed for reconciling purposes. Other users
    commented that the pipeline report is not user-friendly and that additional analytical
    and financial information would be helpful. According to Agency officials, as stated in
    a footnote to the pipeline reports, the report’s detail amounts will not always match
    the summary for the following reasons:

       o   The report includes standard voucher and journal voucher cash
           adjustments for quarter and year end.

       o   For recently migrated Phoenix missions, prior year and current year
           pipeline amounts will be affected by missing transactions.
3
 Pipeline: The amount of funds obligated but not expended; the difference between cumulative
obligations and cumulative expenditures, including accruals.



                                                                                          6
        o   The calculation method used for the pipeline amount in the pipeline
            report differs from the calculation method used in document level
            pipeline reports.

    In addition, six of the eight users identified concerns with accuracy, completeness,
    and/or timing for the R201, Obligations by Fiscal Year Report, which tracks the
    obligated, advanced, liquidated, and outstanding amounts at the accounting line
    level. According to users, for some unknown reason, when the report was run in the
    morning it was missing obligation or disbursement data, but the information was
    included when the report is run in the afternoon.

In addition, of the 10 mission controllers and deputy mission controllers surveyed:

•   Sixty percent indicated that management operational information related to pipeline,
    operating expense budget data, and accruals in the Standard Phoenix and Business
    Objects Enterprise reports was not useful. For example, one mission controller
    commented that the R201, Obligations by Fiscal Year Report, does not contain
    transaction descriptions necessary to review posting errors and budget planning. In
    addition, a Phoenix report has not been developed to monitor and manage personal
    service contracts.

•   Fifty percent responded that the information available in Phoenix Viewer was not
    useful. For example, mission controllers indicated that information obtained through
    Phoenix Viewer must be sorted and edited extensively in Excel to produce useful
    information in user-friendly format.

       Ability to Create Reports – With respect to system response time 4 when
creating reports:

•   Nine of 95 users reported that response time is generally too slow when creating
    Business Objects Crystal Enterprise 5 and Phoenix standard reports over the intranet.
    For example, one user estimated that, on average, month-end Business Objects
    Reports could take up to 2 hours to run. Another user reported that he does not
    create reports in the afternoon because the system response is too slow. Two users
    commented that their local instance of Phoenix Viewer is used to create needed
    reporting information because it is faster than using Business Objects Crystal
    Enterprise and Phoenix standard reports.

•   Five users commented that setting report parameters was time-consuming and
    affects the amount of time needed to create reports.

•   Five of the mission controllers surveyed commented that the Phoenix implementation
    has reduced the efficiency of their mission operations primarily because of the



4
  Response time: The amount of time between a request for a network service and a response to
the request.
5
  Business Objects Enterprise provides users with standard reports that incorporate a variety of
parameters.


                                                                                               7
    increased effort and time required to produce operational reports. For example,
    during an effort to generate a report of the Agency's operating expense obligations
    for the past 4 years, it took the system 2 1/2 hours to produce the report.

Reasons for Reporting Difficulties – As discussed below, the problems with Phoenix
reporting occurred because USAID did not (1) follow through with its reporting strategy in
an organized manner, (2) adequately manage risks related to reporting needs, or
(3) actively monitor the performance of reports.

       Reporting Strategy Not Implemented in an Organized Manner – The
Agency’s difficulty in developing a reporting solution that provides accurate, complete,
and timely information is attributable, in part, to USAID not implementing its reporting
strategy in an organized manner. USAID’s reporting strategy was initially documented in
the “Phoenix Overseas Reporting Strategy” (henceforth referred to as “strategy
document”) in November 2003. The strategies developed to meet the long-term
requirements for information were to:

•   Design a database for easy information access.

•   Provide information access options for all types of users.

•   Implement an efficient report development process.

•   Conduct a sustained customer outreach effort.

To implement the aforementioned strategy, USAID documented the high-level
requirements that would serve as the basis for building the reporting database, and
developed the reports and queries intended to satisfy the critical mission information
needs of the pilot missions and to continue the reporting development and maintenance
process after the overseas deployment. However, based on Agency officials’ responses
to our questions during the Information Technology (IT) Governance audit, 6 before the
high-level requirements could be implemented, the approach was abandoned and a
report requirements traceability matrix that detailed the Agency’s approach to report
development was never prepared. As such, at the time of the Phoenix rollout to the pilot
missions, 13 of the 18 critically needed reports were found deficient owing to concerns
with incomplete data in reports, negative balances, missing data, data not useful for user
needs, and incorrect balances or calculations.

According to Agency officials, the current reporting strategy is based on requests for new
reports, enhancements, and corrections that are reviewed, analyzed, and (if approved)
prioritized for change request submission. Each approved change request goes through
the standard developmental process, which includes establishing requirements. The
Reports Team continues to release new reports/enhancements on a quarterly basis.

However, the reporting strategy is a reactive approach that conducts the requirements
analysis during the change request process. Instead, USAID needs to adopt a proactive



6
 Audit of USAID’s Information Technology Infrastructure (Audit Report No. A-000-05-006-P,
February 22, 2005).


                                                                                            8
approach that first considers existing reports available from all sources (e.g., standard,
Business Objects Enterprise, mission developed) and that assesses users’
data/information needs prior to report development and/or enhancements.

        Ineffective Management of Reporting Risks – Another factor that contributed
to USAID’s current reporting dilemma stems from the data/information risk assessment
conducted during the project planning. USAID identified 12 risks for the Phoenix
Overseas Deployment Project related to data/information. The Agency’s mitigation plans
for 3 of the 12 risks had a negative impact on the reporting solution and the Agency’s
current situation, as discussed below.

•   System testing: USAID did not mitigate the medium risk assessed relating to system
    testing (which is testing conducted on a complete, integrated system to evaluate the
    system's compliance with its specified requirements). As such, according to USAID’s
    “Phoenix Overseas Deployment Pilot Lessons Learned,” December 10, 2004, some
    reports were promoted to independent system testing prior to undergoing complete
    functional testing. This (1) violated the configuration management process,
    (2) increased the number of incidents during independent tests, and (3) subsequently
    increased the effort and time associated with resolving test incidents.

•   Critical reports: The risk of not having critical reports to continue operations was
    assessed as high. As a part of the contingency plan, USAID developed an ad hoc
    tool that allowed users to query their data according to their needs. However, USAID
    did not effectively mitigate this risk because the Agency was unsuccessful in its
    attempt at developing that tool. As a result, USAID created Phoenix Viewer, a stand-
    alone reporting tool that gives mission users access to their basic Phoenix
    information, which according to Mission Controllers, must be extensively sorted and
    edited in order to produce useful information in a user-friendly format.

•   Data migration: Because the risk for data migration was assessed as low, neither a
    risk mitigation plan nor a contingency plan was required, and hence not developed.
    However, mission users expressed concerns that some reporting information is
    incomplete because of data not included in the migration. (See “Quality of
    Information” section of this finding.) In addition, according to mission users, cuff
    records are maintained to meet business needs.

         Reports Not Actively Monitored – A final attributing factor to USAID’s reporting
difficulty was that USAID did not actively monitor the performance of reports.

USAID has reports monitoring capabilities that provide important information about the
time that it takes to run scheduled Business Objects reports. For example, the Crystal
Usage Report documents the number of times Business Objects/Crystal reports are
accessed. According to Crystal Usage Report, the Document Line Level Liquidation
Report (R0211), which allows users to review the transaction history and unliquidated
balances of individual obligation document line items, was accessed a total of 9,358
times by 46 users from October 1, 2006, through February 23, 2007. However, it took 8
of the 47 users (17 percent) well over an hour to run the report.

A review of these performance statistics should prompt an investigation of possible
problems in either accessing or creating reports. However, according to Agency officials,
the monitoring report is provided only upon request. Typically, the criteria for follow-up


                                                                                        9
are user complaints of long run-times to generate a report or inquiries into general slow
performance of Business Objects. However, according to USAID officials, reports
monitoring would require additional funding.

Impact of Reporting Deficiencies – Although Agency officials state that Phoenix is the
official system of record, the lack of user confidence in the integrity of the standard
reports and the reporting information led to missions developing their own reporting
tools. As a result, the Agency is at risk of creating duplicative and/or unneeded reports,
thereby missing an opportunity to save the Agency’s scarce resources. In addition, the
Agency risks receiving inconsistent information for management reporting, congressional
inquiries, and Agency data calls—which is contrary to one of the ultimate objectives of
the POD project.

Further, as of February 14, 2007, there were 123 outstanding requests for improvements
and enhancements in the research status and an additional 59 requests in research that
would affect multiple reports. (USAID did not provide supporting documentation for the
outstanding requests that explain specifically what changes or enhancements were
requested.)

According to USAID officials, the overall reporting strategy will be reviewed and
assessed to determine the best ways to address users’ concerns. Nonetheless, at a time
when the Agency is challenged with budget cuts and fewer staffing resources, USAID
needs to ensure that the reports that it continues to develop and support meet users’
needs. Therefore, this audit makes the following recommendations.

       Recommendation No. 1: We recommend that USAID’s chief financial officer
       conduct an analysis of outstanding reporting issues and requests from Phoenix
       users’ to assess the overall Phoenix users’ information needs. At a minimum, this
       analysis should include preparing and implementing a detailed plan with
       timeframes to (1) fully document mission users’ specific reporting needs,
       (2) eliminate reporting gaps in information provided from Phoenix, (3) eliminate
       unneeded reports supported by the Agency, and (4) use mission-developed
       reports to the extent possible.

Evaluation of Management Comments – In response to the draft report, USAID
management agreed with the recommendation. To correct the weakness, USAID plans
to:

•       Establish and formalize a working group by February 29, 2008, to discuss and
        document mission reporting needs and address gaps in current reporting
        information provided by Phoenix.

•       Review and eliminate reports that are no longer used by June 30, 2008.

•       Assess mission-developed reports through September 30, 2008, as resources
        permit.

Based on USAID’s management response, a management decision has been reached
for Recommendation No. 1.




                                                                                       10
       Recommendation No. 2: We recommend that USAID’s chief financial officer
       develop and implement a process to proactively monitor and address slow
       response times for generating Business Objects Enterprise reports.

Evaluation of Management Comments – In response to the draft report, USAID
management stated that the Office of the Chief Information Officer periodically runs a
report that shows the time taken to run reports during a defined time period. The Office
of the Chief Financial Officer will begin monitoring these reports daily and the process
will be formalized by February 29, 2008.

Based on USAID’s management response, a management decision has been reached
for Recommendation No. 2.


Did USAID’s implementation of Phoenix at selected missions
meet users’ needs with respect to system performance?
USAID’s implementation of Phoenix at selected missions met users’ needs with respect
to system performance, although some mission users were unable to work efficiently
owing to unstable system performance.

USAID achieved its goal of deploying a Web-based application that permits users from
around the world to process transactions in an integrated financial management system.
This success contributed to USAID’s ability to address its longstanding material
weaknesses related to the Agency’s financial statements and the financial management
system.

Nonetheless, approximately 50 percent of end-users indicate that improvement is
needed with system performance for transaction response time. In addition, 41 percent
of the users encountered difficulties with system performance. Further, 29 percent of the
users reported that they had recently experienced a loss of connection. The following
section discusses the system performance problems in detail.

System Performance Problems

 Summary: Contrary to best practices prescribed by CoBIT 4.0, USAID did not fully
 meet users’ needs with respect to system performance. This occurred because
 USAID did not: (1) perform volume and stress testing prior to deployment, (2) provide
 continued funding for users’ concerns with system performance, (3) implement an
 effective performance monitoring process, and (4) develop a completed business
 continuity plan for Phoenix. As a result, users resorted to working around the system
 performance limitations.

System Performance Problems Identified – CoBIT 4.0, section AI1.1, “Definition and
Maintenance of Business Functional and Technical Requirements,” calls for identifying,
prioritizing, specifying, and agreeing on business functional and technical requirements
covering the full scope of all initiatives required to achieve the expected outcomes of the
IT-enabled investment program. The section also calls for definitions of the criteria for
acceptance of the requirements. Requirements should take performance into account,


                                                                                         11
among other things. In addition, section AI2.5, “Configuration and Implementation of
Acquired Application Software,” states that issues to consider when implementing a
system include the organization’s information architecture and system performance
efficiency.

Of the users surveyed, 35 out of 70 (or 50 percent) indicated that the system
performance for transaction response time needed improvement. Further, 41 percent of
the users reported that they had recently encountered difficulties with system
performance, while 29 percent reported that they had recently experienced times when
they lost connection.

For example, mission users indicated that system response time was slower in the
afternoons. In addition, mission users experienced “timed-out” errors or system freezes
and lost connectivity throughout the day owing to poor systems performance. One user
estimated that it took approximately 25 minutes in the morning and 30 minutes in the
afternoon to create and process a payment authorization. That same user estimated
that, on average, month-end Business Objects Reports could take up to 2 hours to run.
Another user reported that he does not create reports in the afternoon because the
system response is too slow.

Likewise, in USAID’s “Phoenix Overseas Deployment Project Closeout and Post-
Implementation Review Report,” dated October 6, 2006, 26 percent of the users
surveyed reported that they recently encountered difficulties with system performance,
while 33 percent 7 reported that they had recently experienced times when they lost
connection.

Based on an analysis of USAID’s performance data for the 3-month period from
September 1 through November 28, 2006, USAID’s accounting stations in Almaty and
Pretoria experienced latency 8 measurements that did not meet USAID’s 600
milliseconds (ms) performance goal. Specifically, Almaty’s roundtrip times for the 3-
month period averaged 710ms, while Pretoria averaged 736ms.

In addition, on January 30, 2007, we noted that:

•   For Almaty’s Very Small Aperture Terminal (VSAT) connection, although bandwidth
    utilization was in an acceptable range of 61–70 percent for approximately 90 percent
    of the month, latency was very slow, performing:

    -   Between 600 and 800ms approximately 90 percent of the time.

    -   Greater than 800ms approximately 10 percent of the time.

•   For Pretoria’s VSAT connection, although bandwidth utilization was in the 61–
    70 percent range for approximately 78 percent of the month and 81–90 percent for
    approximately 20 percent of the month, latency was very slow at times, performing:


7
  25 percent of the users did not respond to this question.
8
  Latency is generally the amount of time required for a data packet to traverse the network from
the source to destination, and refers to a delay factor that will inherently affect any transaction
that uses that component.


                                                                                                12
    -   Between 600 and 800ms approximately 23 percent of the time.

    -   Greater than 800ms approximately 12 percent of the time.

Causes of System Performance Problems – The above problems occurred primarily
because (1) volume and stress testing were not performed prior to deployment,
(2) support for system performance was reduced because of budget cuts, (3) the
Phoenix business continuity plan was incomplete, and (4) performance monitoring was
ineffective, as discussed below.

       Volume and Stress Testing – The purpose of volume and stress testing is to
evaluate system performance during peak hours.

•   Volume testing is performed to determine the maximum volume of records (i.e., data)
    that the application can process at one time.

•   Stress testing is performed to determine the maximum number of concurrent
    users/services that the application can process.

However, volume and stress testing was not performed prior to deployment. Instead,
USAID conducted limited performance testing at selected missions to (1) assess the
hardware in place, (2) determine acceptable performance at USAID/Washington and a
mission with good telecommunication capabilities, and (3) identify which version of the
Phoenix software to pursue.

According to USAID officials, volume and stress tests were not performed because
Phoenix performance was deemed as acceptable based on users’ ability to complete
their work in a reasonable amount of time. However, Agency officials noted that,
because Phoenix is Web-based, the technical infrastructure is the major factor in
performance. As such, if the Internet is not functioning at a particular mission, overall
performance may be affected, regardless of Phoenix’s performance. Agency officials
also noted that the Phoenix team coordinates with the Office of the Chief Information
Officer (CIO) when mission users alert the team to an issue with performance.

       Support for System Performance Reduced because of Budget Cuts –
Budget cuts, which affected the level of support provided to mission users for monitoring
and addressing users’ system performance concerns, also impacted USAID’s ability to
meet users’ needs with respect to performance. Specifically, in a March 10, 2006,
Agency Notice, the Acting CIO stated that significant budget cuts totaling $8.6 million
forced the Agency to reduce the level of service provided to mission users for user
support. Included in the budget cuts were the following items, which affected system
performance:

•   No after-hours technical support for reaction to unplanned infrastructure problems
    would be funded except by use of compensatory time. As such, contractors would be
    compensated by giving them time off from their normal shift. Therefore, customers
    should expect reduced staff during normal day shifts and slower response to service
    requests.




                                                                                      13
•   Travel would be no longer funded for contractors in Telecommunications and
    Systems Infrastructure and further travel would have to be funded by the benefiting
    mission for servers. Problems that required specialized technical expertise from
    outside the capabilities of existing staff would require outside funding.

•   Mission moves, especially of telecommunications equipment that has to be moved
    by central contractors, would be supported only if the missions could provide funding
    for labor and all travel costs.

•   There would be a 14 percent day-time staff reduction in telecommunications
    operations support. Customers should expect slower response to (1) changes they
    want to make to connectivity and (2) connectivity problems.

       Ineffective Performance Monitoring – In Audit Report No. A-000-05-006-P,
Audit of USAID’s Information Technology Infrastructure (February 22, 2005), the Office
of Inspector General recommended that USAID’s chief financial officer (CFO)
(1) develop and implement formal performance goals for transaction response times in
Phoenix in all locations worldwide and (2) implement a process to actively monitor
transaction response times in Phoenix in all locations worldwide.

In response, by November 2005, the CFO planned to:

•   Develop formal performance goals for Phoenix transaction times based on industry
    best standards that would apply to all missions that receive Phoenix. Once
    performance testing and user feedback at some of the more technically challenged
    missions was completed and performance goals were established, the CFO would
    implement worldwide performance goals.

•   Implement a system to monitor Phoenix response times proactively in the overseas
    missions once the performance goals based on industry best standards for Phoenix
    transaction times were established.

In an April 2006 status report on those recommendations, the Agency reported that the
CFO and CIO modified the approach in establishing and monitoring performance after
upgrading Phoenix to version 6.0. The revised approach focused on bandwidth and
latency as indicators of acceptable performance rather than the previous approach of
measuring transaction response times. The status report also stated that the acting CIO
advised that response times greater than 600 ms might affect Phoenix performance,
which was consistent with the recommended standard established during the pilot
deployment of Phoenix. Yet, the status for the report mentioned no established standard
for bandwidth utilization.

In addition, the status report stated that performance goals based on transaction
response times were not updated at that time because Phoenix was still being deployed
and would need to be in steady state in order to determine the appropriate performance
ranges by transaction. However, according to Agency officials, although Phoenix is in steady
state, USAID has not established performance goals for transaction response time or begun
to monitor against those goals.




                                                                                         14
According to Agency officials, login response time is monitored as an indicator of
expected performance. However, latency and response times for login, obligations, and
payments during the month of January 2007 do not support the theory that login
response time is a good indicator of performance.

•   Login response times for the missions reviewed ranged between 6 and 19 seconds,
    well below the 23–50 second performance goal established during the pilot
    deployment. However, the Almaty and Pretoria missions experienced high average
    latency measurements in the range of 600–800ms during the month, 90 percent and
    23 percent of the time, respectively, despite an acceptable login response time.

•   Although the Dakar and Manila missions experienced latency that on average
    measured in the 300–600ms range more than 80 percent of the time during the
    month, the total average response time to process payments was high, measuring at
    286 and 290 seconds, respectively. (The Agency did not set performance goals for
    payments during the pilot deployment. No explanation was given for not having done
    so.)

•   The average time for processing obligations ranged from 46 to 181 seconds, which
    exceeds the previously established performance goal that ranged from 31 to 54
    seconds.

The information above confirms that, although login response time may be an indicator
of system performance, other factors (e.g., latency, bandwidth, and transaction response
times) need to be monitored to provide a more complete indication of system
performance.

According to Agency officials, the performance data results are shared regularly with the
Phoenix Technical Team, which is cochaired by managers from the Offices of the CFO
and CIO. However, no formal management process compares actual performance
results to expected performance results in order to implement corrective action to
improve system performance. Instead, according to Agency officials, the lack of user
complaints generally dictates acceptable performance.

In addition, USAID has a tool that is capable of generating service delivery reports that
monitor the total average response times. If baseline thresholds are established, the
monitoring tool is able to calculate service-level agreement violations (i.e., when
response times exceed an established baseline threshold) for each mission or by region
based on telecommunication capability. However, the service delivery reports are not
used to monitor system performance. According to Agency officials, the current baseline
threshold is set at a default value of 100ms. As a result, the reported service level
agreement violations are misleading and meaningless.

         Phoenix Business Contingency Plan Incomplete – USAID’s “Phoenix
Business Contingency Plan,” dated March 24, 2006, provides a good start for dealing
with slow connectivity issues. However, the plan appears to be a conceptual document
and the triggering events described are broad and vague. The plan needs to be more
definitive with measurable triggers and timeframes for implementation in the event of
disrupted service.




                                                                                      15
For example, the triggering event for one item in the plan is described as "Consistent
poor performance,” for which the remedy is to purchase additional bandwidth from the
local Internet service provider or Very Small Aperture Terminal, if possible. However, the
plan neither defines timeframes for what constitutes “consistent” nor defines “poor
performance.” In addition, the plan does not provide alternative solutions for missions
that are unable to purchase additional bandwidth. Further, according to Agency officials,
“consistent poor performance” is generally identified by the user for actions, such as
taking too long to load a page. The practice of evaluating poor performance based on
the mission end users’ tolerance of system performance is a reactive rather than
proactive approach, which negates the purpose of establishing a performance goal.

According to the plan, an initial set of solutions were provided for missions that may
have been at risk of latency problems. The solutions were based on response times
tested between December 24, 2005, and January 26, 2006, a 1-month period. The plan
further states that any recommendations implemented by the Phoenix team will result
from a comprehensive view of the data over a period of several months, and that a final
contingency plan will be developed for each mission. A viable contingency plan is
especially critical for missions in the Africa region, where limited telecommunications
infrastructure and inherent technical constraints are significant.

Impact of System Performance Problems – As a result of the system performance
problems, missions work less efficiently as they try to work around the sluggish system
performance. Specifically, of the users surveyed:

•   21 percent reported to work early or stayed late when performance improved.

•   21 percent performed other tasks that did not require the use of Phoenix when
    having difficulty gaining access. For example, during power outages—which may be
    daily occurrences in the Africa region—users reported that they work outside of the
    system using Excel spreadsheets.

•   15 percent scheduled work to minimize the number of users accessing Phoenix.

•   13 percent worked overtime to complete daily work.

Similarly, USAID’s “Phoenix Overseas Deployment Project Closeout and Post-
Implementation Review Report,” dated October 6, 2006, (called Agency PIR) determined
that:

•   35 percent reported to work early or stayed late when performance improved.

•   16 percent use several computers to process daily work.

•   12 percent worked overtime to complete daily work.

•   7 percent schedule work to minimize the number of users accessing Phoenix.

In addition, one of the Agency’s tips to improve performance has the effect of the user
working around the telecommunication issues—which creates an environment of a less
productive staff. Specifically, that tip suggests that the missions schedule their work



                                                                                       16
around maximum usage hours, which is defined for most missions as from 10:00 a.m. to
11:30 a.m. and 2:00 p.m. to 4:00 p.m. local time. Further, the tip encourages the user to
wait until there are fewer users on the system.

According to the Agency PIR, during the next several months the project team will focus
on stabilizing, fine-tuning, increasing efficiency, and creating future initiatives for Phoenix
in steady state. Nonetheless, this audit makes the following recommendations to help
USAID meet the needs of Phoenix users’ with respect to system performance.

   Recommendation No. 3: We recommend that USAID’s chief financial officer, in
   collaboration with the chief information officer, establish meaningful performance
   goals most applicable to the Agency’s monitoring capabilities (including but not
   limited to bandwidth, transaction response time, and latency) to assist Phoenix
   users in completing their work efficiently.

Evaluation of Management Comments – In response to the draft report, USAID
management commented that the performance goals established during the Phoenix
pilot phase are current. In addition, USAID management requested that this
recommendation be closed upon issuance of the report. However, USAID did not
provide documentation showing that the performance goals are still valid. As such, this
audit considers that management decision has been reached for Recommendation
No. 3. However, Recommendation No. 3 will not be closed upon issuance of this report.

   Recommendation No. 4: We recommend that USAID’s chief financial officer, in
   collaboration with the chief information officer, establish a process to (1) actively
   monitor system performance against the performance goals established from
   Recommendation No. 3 and (2) take corrective action when needed.

Evaluation of Management Comments – In response to the draft report, USAID
management stated that the Office of the Chief Information Officer is implementing an
Enterprise Tools Tech Refresh Project. When these tools are in place, the chief financial
officer will work with the chief information officer to monitor bandwidth, transaction
response time, and latency. The project will monitor actual Phoenix response times for
transactions. With this monitoring capability, the Office of the Chief Financial Officer will
update its performance goals if necessary and then actively monitor the financial system
against these newly revised goals. Funding permitting, these new monitoring tools will
be in place by April 2008, and the process for monitoring system performance against
performance goals will be in place by August 2008.

Based on USAID management’s comments, a management decision has been reached
for Recommendation No. 4.

(Note that slight wording changes from the draft report were made to clarify the intent
Recommendation No. 4.)

   Recommendation No. 5: We recommend that USAID’s chief financial officer, in
   collaboration with the chief information officer, implement the following for the
   Phoenix Business Contingency Plan: (1) incorporate the established
   performance metrics for latency and bandwidth, and (2) define contingency
   triggers and timeframes for triggers, solutions, and impacts.



                                                                                            17
Evaluation of Management Comments – In response to the draft report, USAID
management stated that the Phoenix Business Contingency Plan will be updated and
definitions in the document will be clarified once the monitoring tool (described in the
management responses to Recommendation Nos. 3 and 4) has been implemented.
According to the response, the monitoring tool will allow the Office of the Chief Financial
Officer to more accurately establish and define metrics, triggers, and timeframes in the
Phoenix Business Contingency Plan. USAID plans to update the contingency plan by
August 2008.

Based on USAID management’s comments, a management decision has been reached
for Recommendation No. 5.


   Recommendation No. 6: We recommend that USAID’s chief information officer
   establish a process to ensure that volume and stress testing is performed for
   ongoing and future information technology projects and that the results of the
   tests are considered as part of the process to approve the system deployment.

Evaluation of Management Comments – In response to the draft report, USAID
management stated that the OCIO recently established a Pre-Production Lab
environment. That Lab will be used to validate hardware, software, and data
deployments and their operability within a simulated production environment, including
the typical mission environment. USAID also plans to implement a tool that will be used
to simulate user and network traffic to recreate a wide range of real-world loading
scenarios. Finally, Test Readiness Reviews and Deployment Readiness Reviews will be
used to ensure that volume and stress testing are performed for ongoing and future IT
projects and that the results of the tests will be considered a part of the process to
approve the system for deployment. USAID plans to implement this process by April
2008.

Based on USAID management’s comments, a management decision has been reached
for Recommendation No. 6.


Did USAID’s implementation of Phoenix at selected missions
meet users’ needs with respect to user support?
USAID’s implementation of Phoenix at selected missions met users’ needs with respect
to user support, except with respect to training and education for mission users.

USAID succeeded in establishing an effective communication plan to involve worldwide
mission users and provide channels for user input into the deployment of Phoenix. In
addition to conducting conferences with mission subject matter experts to act as liaison
between mission users and the project deployment teams, throughout the regional
deployments, Lesson's Learned Meetings and weekly conference calls were held to
address users’ concerns. The Agency also publishes a monthly newsletter (called
“Phoenix Flight”) to communicate with the larger worldwide community and stakeholders.

Despite USAID’s effective communications plan, USAID did not provide sufficient
training and education for users. The following section discusses this issue in detail.



                                                                                        18
Training and Education
for Users Needed
    Summary: USAID did not fully meet mission users’ training and education needs as is
    recommended in best practices. This problem is primarily attributed to USAID’s
    aggressive deployment schedule and reduction in independent, onsite
    postdeployment support owing to budgetary constraints. As a result, USAID risks
    instituting inefficiencies in the mission’s processes to generate reports and process
    transactions.

Weaknesses in Training and Educating Users – CoBIT 4.0, section AI4.3,
“Knowledge Transfer to End Users,” states that knowledge and skills to allow end users
to effectively and efficiently use the application system to support business processes
should be transferred to end users. The knowledge transfer should include the
development of a training plan to address initial and ongoing training and skills
development, training materials, user manuals, procedure manuals, online help, service
desk support, key user identification, and evaluation. In addition, section DS7.1,
“Identification of Education and Training Needs,” states that implementation of new
software should be considered in establishing and regularly updating the curriculum.

The Agency has provided mission users with training specific for performing day-to-day
functional responsibilities within Phoenix. Approximately 87 percent of the users
surveyed indicated that training received thus far was adequate to perform their jobs.
However, users also called for improvement in training and refresher training.
Specifically, 25 of the 70 (approximately 36 percent) mission user survey respondents
indicate that Phoenix training needs improvement. For example:

•     Users responded that training is needed primarily with reports, queries, and report
      generation. Other areas of training identified included but were not limited to
      processing vouchers and Agency codes, cashiering, and trust funds.

•     Users also indicated that training was needed for system upgrades as well as job
      training for new hires.

In addition, 42 of the 70 (approximately 60 percent) mission users also indicated that
refresher training was needed. Moreover, the Agency reported in their user support
survey that all respondents identified a need for refresher training on Phoenix. Most
users indicated that yearly refresher training is needed primarily on reporting and that
classroom training was preferred over online training.

Mission users also expressed a need to learn more about how Phoenix operates. For
example:

•     Eight users described the need to have more in-depth training to understand all
      areas, including the General Ledger impact and improvements.

•     Two users described the need to understand the workflow process.

Further, mission users recommended comprehensive training to provide a better
understanding of Phoenix and continued training through standard refresher courses.


                                                                                       19
Causes of Weaknesses Training and Education – As discussed below, weaknesses
Phoenix user education and training are primarily attributed to the aggressive
deployment schedule and the reduction in independent, onsite postdeployment support
owing to budgetary constraints.

        Aggressive Deployment Schedule – The Agency’s aggressive deployment
schedule was a contributing factor in the need for refresher training. Typically, training
covers the basic skills that are needed to use the system correctly. USAID’s go-live
training sessions included 1 week of onsite training for subject matter experts, voucher
examiners, and accountants, followed by 2 weeks of onsite user support after the
deployment.

Although the users indicated that the go-live training adequately prepared them to
perform their daily tasks, because USAID condensed a significant amount of material in
a short period of time, there was less of an opportunity for education about the system.
Education goes one step further than training by showing users how the new system will
help the organization function more effectively. The task of educating the end user plays
an even more important role in a system deployment.

•   Education demonstrates to the user how the new system and procedures can have a
    positive impact on the Agency and on the user’s role in it.

•   Education allows users to become better decision-makers when performing daily
    routines, resolve problems encountered, and even reduce the incidence of costly
    mistakes in processing transactions.

        Reduction in Independent, Onsite Postdeployment Support Owing to
Budgetary Constraints – Following the pilot deployment, USAID modified the level of
postdeployment onsite support provided to mission users owing to budget constraints.
Previously, this support was performed by an independent change management team
that formally obtained feedback directly from mission users through the use of onsite
surveys. With the modified approach, according to Agency officials, CFO staff assumed
more responsibility during the predeployment phase to (1) monitor the performance of
the training conducted, (2) observe user comfort with material presented, and
(3) conclude the training session to manage users’ expectations during deployment. In
addition, the change management team members contacted mission users through
conference calls to discuss their concerns. This new approach replaced the
independent, onsite postdeployment support that was previously provided.

Under the modified approach, less detailed information was provided to help improve the
overall deployment effort. For example, the Pilot Lessons Learned Report (prepared
under the initial approach) included a description of the lessons learned; the
recommendation; and the impact on cost, scope, schedule, and approach. Whereas,
after modifying the approach, the Lessons Learned Report was reduced to a
memorandum that did not necessarily include all of the lessons learned but reported only
the problem area (e.g., data migration), the recommendation, and its status.

Impact of Training and Education Weaknesses – As a result of the training and
education weaknesses, USAID runs the risk of users working less efficiently and
effectively (e.g., erroneous transactions) when processing transactions through the


                                                                                       20
system and running Phoenix reports. For example, one user reported processing a
transaction in error that resulted in a need to create more than 60 entries to reverse and
repost correcting entries.

According to Agency officials, users enter the wrong parameters when attempting to
generate Standard and Business Objects Enterprise reports. Agency officials further
stated that mission users are experiencing a learning curve, which is likely to continue.
However, it is questionable that the issue relates to a learning curve when mission users
have resorted to developing alternative reporting tools to meet their information needs.
(See the “Quality and Performance of Reports Needs Improvement” section of this
report.)

Although the Agency officials feel that users were provided ample training, the training
was modified halfway through the regional deployments to Asia and the Near East and
Africa regions to address the specific needs of each mission and expanded into multiple
sessions. Agency officials acknowledged that the modified reports training improved the
mission users’ ability to generate reports and queries. Nonetheless, in an article
published in the February 2007 issue of “Phoenix Flight” entitled “Continued Phoenix
Training,” a contributing writer involved in the Africa I regional deployment reported that
the initial training was an excellent start but that additional training was needed.

According to the article, users struggled to apply what they learned in the training
provided while performing their daily tasks. Consequently, the subject matter experts
were inundated with repetitive questions from multiple users, many of which were then
referred to the Phoenix Regional Support Centers. To remedy the situation, the article
stated, several of the missions in Africa conducted additional training to incorporate the
business process, in order to meet the mission users’ needs.

Although USAID made some modifications to training to address specific users’ needs,
the change occurred during the last regional deployments. Therefore, this audit makes
the following recommendation.

       Recommendation No. 7: We recommend that USAID’s chief financial officer
       document and implement an updated plan to provide Phoenix training materials
       for system upgrades and continuous refresher training.

Evaluation of Management Comments – In response to the draft report, USAID
management stated that the CFO agrees with the recommendation. As such, the CFO
has been and will continue to be updating the approach to provide training materials for
system upgrades, new hires, and refresher training. However, USAID management
noted that the ability to provide this training is severely limited owing to budgetary
constraints. Therefore, information for changes to the system has been provided on an
ongoing basis. In addition, new users are receiving on-the-job training and missions
have cross-trained other missions.

In addition, USAID plans to review and updated the training plan with the next major
upgrade to Phoenix—an update which has been postponed during the past 3 fiscal
years due to budget cuts. Currently, USAID plans to begin upgrading Phoenix in FY
2009, and update that training plan by mid-FY 2009.




                                                                                        21
Based on USAID management’s response, a management decision has been reached
for Recommendation No. 7.

(Note that slight wording changes from the draft report were made to clarify the intent
Recommendation No. 7.)


Did USAID’s implementation of Phoenix at selected missions
meet users’ needs with respect to system functionality?
USAID’s implementation of Phoenix at selected missions met users’ needs with respect
to functionality, except for inefficiencies in processing trust funds, disbursements, and
functionality for invoice tracking, prompt pay processing, and Department of Health and
Human Services (DHHS) transactions.

Specifically, USAID’s implementation of Phoenix at selected missions met users’ needs
for processing:

•     Operating Expense (OE) workflow – The OE workflow provides mission users the
      ability to create operating expense budgets, make distributions against the budget,
      process Treasury and U.S. Disbursing Officer payments and create applicable
      budget and spending reports. Substantially all requirements in the OE workflow are
      configured to meet users’ needs for OE processing.

•     Bilateral and unilateral workflows – The bilateral workflow permits mission users to
      create and process program budget, purchase, and expense activity for bilateral
      agreements USAID enters into with foreign governments to benefit the host country.
      A majority of the requirements are configured to meet users need for processing
      unilateral program budgets, purchases, and expense activity.

However, as discussed below, USAID’s implementation of Phoenix at selected missions
created inefficiencies for processing trust funds and disbursements, as well as invoice
tracking, prompt pay processing and DHHS transactions.


Inefficiencies in Processing
Some Transaction Types
    Summary: USAID did not fully meet user needs to ensure that functional needs and
    usability were met as defined in best practices and prescribed by CoBIT 4.0. These
    problems occurred primarily because the system was deployed before it was ready
    and functional requirements documentation was not maintained. As a result, mission
    users were not provided the tools needed to efficiently and effectively complete some
    daily tasks. In addition, mission users maintained cuff records to accommodate the
    gaps in functionality.

Improvement Needed for Some Workflow Configurations – COBIT 4.0, section
AI1.1, “Definition and Maintenance of Business Functional and Technical
Requirements,” calls for identifying, prioritizing, specifying, and agreeing on business



                                                                                       22
functional and technical requirements covering the full scope of all initiatives required to
achieve the expected outcomes of the IT-enabled investment program. The section also
calls for definitions of the criteria for acceptance of the requirements. Requirements
should take functional needs and usability into account, among other things. Finally, a
process should be established to ensure and manage the integrity, accuracy, and
currency of business requirements as a basis for control of ongoing system acquisition
and development.

In addition, section AI2.7, “Development of Application Software,” provides guidance on
software development (or, in this case, acquisition of a commercial off-the-shelf product).
That section puts an emphasis on ensuring that automated functionality is developed in
accordance with design specifications, development and documentation standards, and
quality requirements. The guidance calls for approval and sign-off on each key stage of
the application software development process following successful completion of
functionality, performance, and quality reviews. Issues to be considered include approval
of design specifications that meet business, functional, and technical requirements.

Finally, section AI2.9, “Applications Requirements Management,” states that during
design, development, and implementation the status of individual requirements
(including all rejected requirements) should be tracked and changes to requirements
should be approved through an established change management process.

Although, Phoenix met many of the users’ needs, there were many shortcomings in how
Phoenix was configured to accommodate workflows for trust funds, automated
disbursements/reconciliation, and DHHS and Accrual Reporting System Interface
subsystems. Some examples of functionality shortcomings are discussed below:

•     Automated Disbursements/Reconciliation and DHHS Workflow – This workflow
      includes the process of payment selection, scheduling, and payment generation and
      processing for funds disbursed through the U.S. Treasury, the United States
      Disbursing Office, and local banks. In addition, this workflow includes the process for
      payment processing, confirmation, and reconciliation. The integrated test scenario
      for the disbursements workflow includes requirements for the automated
      disbursements and interface systems for DHHS activity and the Accrual Reporting
      System.

      However, mission users found cash reconciliation more difficult in Phoenix than in
      the previous accounting system, Mission Accounting Control System. According to
      mission users, the U-101 Report 9 provided the necessary totals that facilitated the
      reconciliation process. However, there is no such report in Phoenix. As such, users
      are not sure of the accuracy of the reconciliation and are concerned that errors might
      go unnoticed.

      Similarly, USAID’s OMB A-123 Task Force found that the lack of a U-101 type report
      to assist in the reconciliation process is a deficiency. The Task Force recommended
      that a report similar to the U-101 be developed for use in the reconciliation process.
      According to the A-123 write-up, a monthly Mission Consolidated Report was



9
    The U-101 Report was from the Mission Accounting and Control System.


                                                                                          23
    proposed as an alternative reporting tool in place of the U-101 to enhance mission
    internal controls needed to monitor, detect, and prevent errors and misstatements at
    the mission level.

•   Prompt Pay Functionality – According to Agency officials, mission users opted to
    process payments as imprest funds rather than itemized payments to manage the
    number of steps required to process payments in Phoenix. However, the functionality
    for prompt payment does not exist when processing imprest funds. Therefore,
    mission users manually calculate prompt payment outside of Phoenix to ensure
    compliance with the Prompt Payment Act. This workaround increases the risk of
    missed due dates and avoidable interest payments.

•   Invoice Tracking – Phoenix tracks invoices that are processed through the system
    but not all incoming vouchers. As such, many mission users indicated that a
    separate log is maintained to track the invoice number and receipt date for
    unprocessed documents. This problem is particularly critical given the high number
    of payments made by USAID.

•   Trust Fund Workflow – The trust fund workflow provides mission users with the
    functional requirements to establish and use local currency trust funds. The
    integrated test scenario for the trust fund workflow includes requirements for the
    Budget Execution, Planning, Purchasing, Accounts Payable, Accounts Receivable,
    and the Queries and Reports Momentum modules.

    Although only one mission that processed trust funds was surveyed, users identified
    concerns with some requirements in the trust fund workflow process. For example,
    users indicated they received an error when posting trust fund allotments. In addition,
    mission users were concerned with their inability to deobligate funds from a local OE
    trust fund. Further, the Phoenix user responsible for trust funds indicated that cuff
    records were maintained to track reporting activity for foreign currency transactions
    for local trust funds. The error in posting allotments and the inability to deobligate
    funds occurred because fund maintenance tables were incorrectly setup and
    balances in Phoenix reports were incorrect.

    Although the mission user in our sample attributed the erroneous data to the data
    migrated from Mission Accounting and Control System to Phoenix, the issue is further
    complicated by mission users’ reluctance to enter foreign currency transactions into
    Phoenix. Specifically, OIG financial statement auditors found that mission users were
    not entering their foreign currency transactions in Phoenix because staff members
    did not believe that the system was working properly.

In addition to the effects discussed above, approximately 56 percent of users responded
that they have developed other manual or computerized systems (e.g., spreadsheets,
cuff records) to record accounting, financial, or other information to meet business needs
since Phoenix was deployed.

Causes for Needed Workflow Configuration Improvements – As discussed below,
USAID experienced functionality shortcomings primarily because the system was
deployed before it was ready and functional requirements documentation was not
maintained.


                                                                                        24
System Deployed Before Ready - In its February 2006 report, 10 OIG reported that
USAID accepted and authorized moving forward with the software upgrade despite the
fact that (1) system and regression testing resulted in numerous open test incident
reports, 11 (2) some significant functionality was deferred for future releases of the
software, and (3) certain reporting functionality was not system tested. The POD team’s
“deploy and fix” methodology became evident shortly after the upgrade. Specifically,
immediately after going live with the software upgrade, the POD team prepared urgent
change requests to implement 32 needed changes affecting several functional areas,
including but not limited to automated disbursements, accounts payable, and credit
cards.

In the February 2006 report, OIG recommended that USAID develop its policies and
procedures for each phase and activity of the Agency’s project lifecycle, including
performance metrics and measures. The report found that USAID did not establish
policies and procedures for developing user requirements and identifying the required
inputs or outputs to move to the next phase of the project. In response to the report,
USAID agreed to coordinate the development of USAID’s IT Project Management
Control Manual, which will describe the policies and procedures for each phase and
activity of the Agency’s information technology (IT) project lifecycle. As of the last day of
fieldwork for this audit, final corrective action was not taken on that recommendation.

Functional Requirements Documentation Not Maintained – When Phoenix was
initially deployed in Washington, the initial requirements were developed in the Letter of
Intent, which was established for functionality within Momentum version 3.74. However,
according to Agency officials, documentation was not maintained to identify which
functional requirements were excluded and/or revised. Moreover, according to Agency
officials, USAID did not maintain documentation of which requirements were met and
which were not met.

USAID’s “Phoenix Overseas Deployment Project Closeout and Post-Implementation
Review Report,” dated October 6, 2006, stated that during the next several months the
project team will focus on stabilizing, fine-tuning, increasing efficiency, and creating
future initiatives for Phoenix in the steady state. Therefore, this audit will not make any
specific recommendations with respect to Phoenix functionality. However, USAID needs
to address requirements traceability in its policies and procedures to prevent similar
functional shortcomings in future IT projects. Therefore, this audit the following
recommendation:

        Recommendation No. 8: We recommend that USAID’s chief information
        officer establish a process to (1) ensure that all mandatory requirements
        are met for ongoing and future information technology projects and
        (2) when applicable, document the reasons that requirements are no
        longer considered to be mandatory.

10
   Audit of USAID’s Information Technology Governance over Its Phoenix Overseas Deployment
and Procurement System Improvement Program Projects (Report No. A-000-06-001-P,
February 21, 2006)
11
   The test incident reports were used to document, track, and resolve problems identified during
test execution.



                                                                                              25
Evaluation of Management Comments – In response to the draft report, USAID
management stated that the Office of the Chief Information Officer is developing an IT
Governance Manual. That manual will address standard policies, processes, and
procedures to be followed by all Agency IT projects, including a requirement for the
traceability and management of requirements. (In addition, USAID’s Automated
Directives System will be updated to support those governance practices.) The manual
is expected to be completed by January 2008.

Based on USAID management’s comments, a management decision has been reached
for Recommendation No. 8.




                                                                                   26
EVALUATION OF
MANAGEMENT COMMENTS
USAID’s chief financial and information officers prepared a consolidated written
response to our draft report. The consolidated response is included in its entirety in
Appendix II of this report.

In their response, USAID agreed to take corrective action on all eight recommendations.
However, USAID management commented that many of the recommendations are
dependent on budget resource availability. A summary of USAID’s comments and our
evaluation follows each recommendation in the body of the report.

Based on USAID’s response to the draft report, a management decision has been
reached on Recommendation Nos. 1, 2, 3, 4, 5, 6, 7, and 8.




                                                                                    27
                                                                               APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Office of the Inspector General, Information Technology and Special Audits Division,
with assistance from the Regional Inspector General offices in Cairo, Dakar, Frankfurt,
Manila, San Salvador, and Pretoria, conducted this audit in accordance with generally
accepted government auditing standards. In lieu of performing a full post-implementation
review of the Phoenix Overseas Deployment (POD) project, we limited our audit scope
to determine whether the deployment of Phoenix in mission field locations fulfills users’
needs with respect to reporting, user support, system performance, and system
functionality.

Audit fieldwork was conducted from January 11, 2006, through May 22, 2007. For
Phase 1 of this audit (discussed in the “Methodology” section), we interviewed
approximately 100 (or 12 percent) of 832 Phoenix users at 7 (or approximately 14
percent) of the 51 Phoenix locations. In Senegal and South Africa, we surveyed the
users about system performance only. The following table shows the number of users
interviewed at each mission:

                                                         No. of
                        USAID Mission                    Users
                        USAID/West Bank                   16
                        USAID/Philippines                 13
                        USAID/Jamaica                     14
                        USAID/Kazakhstan                  19
                        USAID/Georgia 12                  11
                        USAID/Senegal 13                  11
                        USAID/South Africa13              16

                         Total No. Users Interviewed       100

Phase 2 of this audit (discussed in the “Methodology” section), was conducted at USAID
headquarters in Washington, DC.

Methodology
To plan this audit, we obtained an understanding of USAID’s POD Project, which
included reviews of the following components:

•    POD project documentation.
•    USAID’s 2005 Administrator Employee Survey results for financial and information
     services.


12
   USAID/Georgia was the pilot mission for this audit. As such, some questions posed to users
were slightly different than questions to users at the remaining missions.
13
   Users were surveyed regarding system performance only.


                                                                                          28
•     Related audit reports: (1) Audit of USAID’s Information Technology Governance over
      Its Phoenix Overseas Deployment and Procurement System Improvement Program
      Projects (Report No. A-000-06-001-P), (2) Audit of USAID’s Information Technology
      Infrastructure (Report No. A-000-05-006-P), and (3) Report on the Audit of USAID’s
      Financial Statements for Fiscal Years 2006 and 2005.
•     Chief Financial Officer’s Council “Implementation Guide for OMB Circular No. A-123,
      Management’s Responsibility for Internal Control, Appendix A, Internal Control over
      Financial Reporting” (July 2005).
•     Agency responses to our preaudit questionnaire.

Audit fieldwork was conducted in two phases. During phase 1, we conducted high-level
structured interviews to (1) assess mission users’ experiences in using Phoenix and
(2) determine whether Phoenix, as implemented, met users’ needs in four key areas:
functionality, system performance, reporting, and user support.

During phase 2, we conducted interviews with responsible Agency officials in USAID’s
Bureau for Management to follow up on users’ concerns. Specifically, follow-up
interviews were conducted with officials in the Offices of the Chief Information Officer
and Chief Financial Officer.

The following sections describe in detail the methodology followed and, when needed,
the materiality thresholds set to answer each of the audit objectives.

Reporting – We defined mission users’ needs with respect to reporting as a user’s
ability to generate timely, accurate, and complete reporting information. To answer the
audit objective, we conducted interviews and evaluated the reporting requirements
process.

System Performance – We defined users’ needs with respect to system performance
by establishing the following criteria for processes and activities:

•         Formal performance goals for transaction response times were developed and
          implemented.

•         A process was in place to actively monitor transaction response times in Phoenix
          in all locations worldwide.

•         A viable Phoenix contingency plan for slow network connectivity was developed,
          tested, and implemented.

•         Response times permitted the user to complete assigned work timely 14 and
          efficiently. 15

•         The methods and techniques used to monitor transaction processing times
          provided the basis for corrective action to address poor telecommunications and
          promote acceptable performance.



14
     Timely: Completing assigned tasks timely within normal business hours.
15
     Efficiently: Performing tasks in an organized and capable way without waste.


                                                                                       29
To answer the audit objective, we conducted interviews and analyzed the system
performance and monitoring reports to determine the quality of interconnectivity between
USAID/Washington and selected overseas missions based on (1) network latency and
(2) response times. Our analysis included selected system network performance results
collected over a 1-month period.

User Support – We defined users’ needs with respect to user support by evaluating the
following criteria:

•      Channels for user input into the deployment process.

•      Adequate training for users.

•      Timely problem resolution.

To answer the audit objective, we conducted interviews and evaluated the service level
provided through the Phoenix Regional Support Centers and USAID/Washington
Helpdesk.

Functionality – We defined mission users’ needs with respect to functionality as
“Phoenix functioning in accordance with USAID missions’ accounting workflow.” (We did
not perform tests to validate the Phoenix functional requirements.)

To answer the audit objective, we evaluated users’ responses to questions regarding
each workflow and underlying requirement to determine whether each scenario
requirement was (1) met, (2) not met, or (3) met with exception. Using that information,
we calculated the overall percentage of requirements met, not met, or met with
exception for each workflow. To answer the audit objective related to functionality, we
used the following criteria:

•      If 80 percent or more of the aggregate workflow scenarios were met, we
       concluded that the underlying requirements were met.

•      If less than 80 percent but greater than or equal to 65 percent of the aggregate
       workflow scenarios were met, we concluded that the requirement was met with
       exceptions.

•      If less than 65 percent of the aggregate workflow scenarios were met, we
       concluded that the requirement was not met.

We reviewed the Phoenix functional requirements, independent system test plans, and
the Functional Team Charter. In addition, we reviewed and relied on some work
performed during the audit of USAID’s Information Technology Governance over its
Phoenix Overseas Deployment and Procurement System Improvement Program
Projects (Report No. A-000-06-001-P).




                                                                                     30
                                                                                     APPENDIX II



MANAGEMENT COMMENTS
December 11, 2007

MEMORANDUM

TO:             Director IG/A/ITSA, Melinda G. Dempsey

FROM:           Chief Financial Officer, David D. Ostermeyer
                Chief Information Officer, David C. Anewalt

SUBJECT: Management Response to Draft Report on Phoenix Post Implementation Audit of
USAID Mission Users' Needs (Audit Report No. A-000-08-XXX-P), October 4, 2007.

Thank you for the opportunity to respond to the draft audit report. This memorandum contains the
management decisions for the Draft Report on Phoenix Post Implementation Audit of USAID
Mission Users' Needs.

The scope of this audit was to determine whether USAID deployed its core financial system,
Phoenix, to mission field locations in a manner that fulfilled the users’ needs with respect to
system functionality, system performance, reporting and user support. Through this audit
process, the Inspector General concluded that:

       USAID’s implementation of Phoenix at select missions met users’ needs with respect to
        reporting, except that the quality of information and the ability to create reports needs
        improvement;
       USAID’s implementation of Phoenix at select missions met user’s needs with respect to
        system performance, except for some mission users’ ability to work efficiently due to
        unstable system performance;
       USAID’s implementation of Phoenix at select missions met users’ needs with respect to
        user support, except with respect to training and education for mission users; and
       USAID’s implementation of Phoenix at select missions met users’ needs with respect to
        functionality, except for inefficiencies in processing trust funds, disbursements, and
        functionality for invoice tracking, prompt pay processing, and the Department of Health
        and Human Services (DHHS) transactions.

The Office of the CFO appreciates that the OIG devoted much time and effort to the completion of
the Phoenix Post-Implementation Review Audit and report. It is important to note that there are
recommendations and findings assigned to the Office of the CFO that are outside of the scope of
the Phoenix system and/or the Office of the CFO. The specific instances are discussed in detail
below. The Office of the CFO also highlights that while specific recommendations recognize
budget constraints, many of the other recommendations are also dependent upon budgetary
resource availability.

Recommendation No. 1
We recommend that USAID’s Chief Financial Officer conduct an analysis of outstanding reporting
issues and requests from Phoenix users’ to assess the overall Phoenix users’ information needs.
At a minimum, this should include preparing and implementing a detailed plan with timeframes to
(1) fully document mission users’ specific reporting needs, (2) eliminate reporting gaps in
information provided from Phoenix, (3) eliminate unneeded reports supported by the Agency and
(4) use mission-developed reports to the extent possible.




                                                                                                   31
Management Response 1

The Office of the CFO (OCFO) concurs with this recommendation. In the past, users’ specific
reporting needs have been documented by OCFO. For example, a reports analysis has been
conducted on several occasions. These occasions include:

       Washington Summit in 2003
       Controller Conference Cairo in 2006
       Developing detailed go-live requirements
       Analyzing help desk reports tickets

Moving forward, in an effort to more comprehensively address Phoenix reporting needs by
mission users and to address points one and two, OCFO is developing a plan to continue to
analyze outstanding reporting issues. There was a reporting session to discuss reports topics at
the Controllers Conference in November 2007. Resulting from the conference was the
establishment of a Reports Working Group, which is comprised of Phoenix Team members and
Phoenix users. The purpose of the group is to incorporate user suggestions, prioritize issues,
review enhancements, and improve transparency in the reports development process. This
working group will be established and formalized by February 29, 2008, and will work throughout
the fiscal year to more thoroughly discuss and document mission reporting needs and address
gaps in current reporting information provided by Phoenix. Output of this process will be
documented on a quarterly basis as an input into the reports development process and planning
for the quarterly Phoenix reports releases.

The OCIO provides OCFO with a report that details Phoenix reporting statistics on items including
daily usage, production time, usage frequency, etc. This information will supplement the Reports
Working Group’s efforts to proactively identify gaps in reporting. OCFO also continues to develop
and release reports on a quarterly basis. OCFO is planning to review and eliminate reports that
are no longer used by the Agency by June 30, 2008.

If OCFO is to leverage any mission-developed reports, internal testing, development, and
training, would be required. Please note that FY08 budget constraints do not give OCFO the
flexibility to assess all of the reporting demands nor all mission-developed reports at this time but
will continue to assess mission-developed reports through September 30, 2008, as resources
permit.

Recommendation No. 2
We recommend that USAID’s Chief Financial Officer develop and implement a process to
proactively monitor and address slow response times for generating Business Objects Enterprise
reports.

Management Response 2
The Data Management (DM) Division of the Office of the CIO periodically runs a Crystal Reports
durations report that shows the time taken to run reports during a defined time period. This report
is regularly shared with members of the Phoenix Reporting Team. For instances in which this
report identifies reports that take more than five minutes to run, the Phoenix change management
team is notified for user follow-up. Most cases involve users entering parameters with selection
criteria which caused the selection of massive amounts of data. When a particular report is
noticed to take a long time to run on a frequent basis, the report is referred to the report writers
for further investigation. OCFO will begin monitoring these reports daily. This process will be
formalized by February 29, 2008.

Furthermore, some of the causes of slow response times, such as the wild card flexibility, can


                                                                                                   32
only be addressed through technical upgrades, which is also dependent on funding. The planned
Operational Data Storage (ODS) could address additional functionalities, based upon contention,
though its availability is contingent upon GLAS, of which it is currently a component. Thus, only
after GLAS has successfully implemented this concept can ODS begin to interface with Phoenix
and potentially alleviate the slow response times.



Recommendation No. 3
We recommend that USAID’s Chief Financial Officer, in collaboration with the Chief Information
Officer, establish meaningful performance goals most applicable to the Agency’s monitoring
capabilities (including—but not limited to—bandwidth, transaction response time, and latency) to
assist Phoenix users in completing their work efficiently

Management Response 3
The Office of the CFO established meaningful performance goals during the Phoenix pilot phase,
and these performance goals are current and accepted today. These goals were used to close a
2006 IG Infrastructure audit. (Documentation will be provided to ITSA separately.)

Because there are performance goals in place, the Office of the CFO requests that this
recommendation be closed upon issuance of the final report. We will address performance
monitoring, including updating the performance goals, in the management response to
Recommendation 4.

Recommendation No. 4
We recommend that USAID’s Chief Financial Officer, in collaboration with the Chief Information
Officer, establish a process to (1) actively monitor system performance against the performance
goals established from Recommendation No. 3 and (2) take corrective action, when needed.

Management Response 4
OCFO lost its system performance monitoring capabilities when the Agency took down the
Marimba tracking tool. Currently, the Business Infrastructure Engineering (BIE) Division of the
Office of the CIO is implementing an Enterprise Tools Tech Refresh Project. When these tools
are in place, the CFO will work with the CIO to monitor bandwidth, transaction response time, and
latency. Included would be actual Phoenix response times for transactions such as Advance, AR,
Budget Allocation, Obligations, Payments, and Commitments. With this monitoring capability,
OCFO will update its performance goals if necessary, and then actively monitor the financial
system against these newly revised goals.

CIO/BIE is also working to provide detailed performance information for Phoenix such as the
synthetic TCP/HTTPS availability and connect times from Phoenix missions to the Phoenix web
front end server in Charleston. CIO/BIE will also provide general mission/Washington availability
and latency information. Further, CIO/BIE will work with OCFO to establish appropriate alert
mechanisms for Phoenix performance metrics.

Funding permitting, these new monitoring tools will be in place by April 2008. The process for
monitoring system performance against performance goals will be in place in August 2008.

Recommendation No. 5
We recommend that USAID’s Chief Financial Officer, in collaboration with the Chief Information
Officer, implement the following for the Phoenix Business Contingency Plan: (1) incorporate the
established performance metrics for latency and bandwidth and (2) define contingency triggers
and timeframes for triggers, solutions and impacts.

Management Response 5
The Phoenix Business Contingency Plan will be updated and definitions in the document will be


                                                                                                 33
clarified once the monitoring tool described in the management responses above has been
implemented. This monitoring tool will allow OCFO to more accurately establish and define
metrics, triggers, and timeframes in the Phoenix Business Contingency Plan.

Updates to the Contingency Plan will occur following the monitoring tool’s deployment in April
2008. The target date for the updated contingency plan is August 2008.

Recommendation No. 6
We recommend that USAID’s Chief Information Officer establish a process to ensure that volume
and stress testing is performed for on-going and future information technology projects and that
the results of the tests are considered as part of the process to approve the system deployment.

Management Response 6
The Office of the Chief Information Officer has recently established a Pre-Production Lab (PPL)
environment which will be used to validate hardware, software and data deployments, and their
operability within a simulated production environment. This simulated environment includes the
typical Mission environment, as well as simulation of USAID's Wide Area Network connectivity
methods. The Enterprise Tools Tech Refresh Project will install and configure a monitoring
solution in the PPL similar to that of the operational network's capabilities for network monitoring
and application transaction monitoring capabilities by April 2008.

As part of the Enterprise Tools project, the Spirent Avalanche Load Testing Appliance will be
installed in the PPL. This device can generate large quantities of simulated user and network
traffic to recreate a wide range of real-world loading scenarios. Test Readiness Reviews and
Deployment Readiness Reviews will be used to ensure that volume and stress testing in the PPL
is performed for ongoing and future information technology projects and that the results of the
tests are considered as part of the process to approve the system deployment.

When the monitoring capabilities are established in the PPL by April 2008, performance and
stress testing in this environment will be implemented for all systems in development. Results
from these tests will be considered as part of the process to approve the system deployment.

Recommendation No. 7
We recommend that USAID’s Chief Financial Officer document and implement an updated plan
to provide Phoenix training materials for system upgrades and continuous refresher training.

Management Response 7
The Office of the CFO concurs with this recommendation and has been, and will continue to be,
updating the approach to provide training materials for system upgrades, new hires, and refresher
training. However, please note that the ability to provide this training is severely limited due to
budgetary restraints. CFO/FS has been providing release notes, Flashes, and updated
procedures for changes to the system on an on-going basis. New hires are receiving on-the-job
training in USAID/W and the missions. Additionally, missions have cross-trained other missions,
which supports “ownership” of Phoenix in the field and is a concept the CFO endorses.

OCFO will review and update the training plan with the next major upgrade (Phoenix 6.2). The
planned Phoenix 6.2 upgrade has been postponed during the past three fiscal years due to
budget cuts. Updating the training plan is contingent upon funding for Phoenix 6.2 upgrade,
which is tentatively scheduled for Fiscal Year 2009. If funding is granted and work on the
upgrade begins in Fiscal Year 2009, the updated training plan will be completed by mid-Fiscal
Year 2009.

Recommendation No. 8
We recommend that USAID’s Chief Information Officer establish a process to (1) ensure all
mandatory requirements are met for on-going and future information technology projects and
(2) when applicable, document the reasons that requirements are no longer considered to be


                                                                                                  34
mandatory.

 Management Response 8
The Chief Engineer Division of the Office of the CIO is developing an IT Governance Manual
which is due to be completed by January 2008. This document will address standard policies,
processes, and procedures expected to be followed by all Agency IT Projects. Additionally, ADS
Policies will be updated to support these governance practices and our Earned Value
Management System (EVMS) practices. Traceability and management of requirements are both
key system development concepts that all projects will be expected to implement correctly. The
IT Governance Manual will include a requirement for the traceability and management of
requirements.




                                                                                            35
U.S. Agency for International Development
        Office of Inspector General
        1300 Pennsylvania Ave, NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
